           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Termination                             Date:    November 4, 2010
           Notification—FMCSA's National Motor Coach
           Safety Program
           Project Number 09M3001M000
  From:                                                            Reply to
                                                                   Attn. of:   JA-40
           Joseph W. Comé
           Assistant Inspector General
              for Highway and Transit Audits
    To:    Federal Motor Carrier Safety Administrator

           On November 19, 2008, the Office of Inspector General (OIG) initiated an audit to
           evaluate the Federal Motor Carrier Safety Administration’s (FMCSA)
           implementation of its National Motor Coach Safety Program. This program
           emphasizes (1) conducting more compliance reviews of motor coach carriers;
           (2) establishing a prioritization system for motor coach carrier compliance
           reviews; (3) mandating state motor coach inspection programs; (4) improving
           safety data, including a bus crash causation study; (5) reducing motor coach fires;
           and (6) expediting safety audits of new motor coach carriers.

           In October 2009, we suspended our audit work to refocus OIG resources on other
           pressing highway and transit issues that developed after we initiated the audit,
           including passage of the American Recovery and Reinvestment Act and the start
           of the Department of Transportation's transit safety initiative. In addition, report
           language accompanying the fiscal year 2011 U.S. House of Representatives-
           passed version of the Transportation and Housing and Urban Development, and
           Related Agencies Appropriations bill indicated the House's expectation that OIG
           audit FMCSA's implementation of the new entrant safety assurance process and its
           response to certain National Transportation Safety Board recommendations, a
           number of which relate to motor coach safety issues.

           As a result, we are terminating the National Motor Coach Safety Program audit
           and planning to initiate a new audit on the related congressional request. We will
           notify you by separate memorandum when a new audit is initiated and contact
                                                                           2


your audit liaison. We may incorporate into the new audit any applicable work
completed during the terminated audit of the motor coach safety program, as
appropriate.

We appreciate the courtesies and cooperation of FMCSA representatives during
our audit. If you have any questions or would like additional information
regarding this terminated audit, please contact me at (202) 366-5630 or
Kerry R. Barras, Program Director, at (817) 978-3545.

                                     #
